                OFFICE OF INSPECTOR GENERAL


           FINANCIAL ANALYSIS REPORT
                                                  ON

            NEW FEDERAL THEATRE, INC.
                                 New York, New York

                               REPORT NO. FA-13-01

                                      August 28, 2013
                                     REPORT RELEASE RESTRICTION

                                    REDACTED FOR PUBLIC RELEASE


In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on
the National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General. Information contained in this report
may be confidential. The restrictions of 18 USC 1905 should be considered before this information is
released to the public. Furthermore, information contained in this report should not be used for purposes
other than those intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                                   INTRODUCTION
REQUEST

New Federal Theatre, Inc. has requested that it be removed from the Cost Reimbursement
Method of Funding.

BACKGROUND

New Federal Theatre, Inc. (NFT) is a non-profit organization with a mission to integrate
minorities and women into the mainstream of American theatre by training artists for the
profession and by presenting plays by minorities and women to integrated, multicultural
audiences.

PRIOR LIMITED SCOPE AUDIT REPORT

The National Endowment for the Arts (NEA) placed NFT on the Cost Reimbursement Method of
Funding based on findings contained in the Limited Scope Audit Report on Selected NEA Grants
to the New Federal Theatre, Inc, Report No. LS-03-02, dated June 12, 2003. The audit could not
be completed because NFT did not have an adequate financial management system in place.

SCOPE AND OBJECTIVE

The scope of the financial analysis was limited to our review of NFT's:

    •   Financial Statements for the year ended June 30, 2012 and 2011;
    •   Budgets for fiscal years 2012 through 2014;
    •   2011 Internal Revenue Service Form 990;
    •   Board of Directors' meeting minutes dated May 16, 2013; and
    •   NEA files for Grant Nos. 11-3200-7091 and 09-3288-7268.

We also consulted with NEA Grants and Contracts (G&C) staff.

The objective of the analysis was to determine whether NFT should be removed from the Cost
Reimbursement Method of Funding and returned to the regular method of funding.

We did not perform an audit; therefore, we do not offer an opinion on the financial statements or
other financial information. The analysis is presented for information purposes only. The
financial analysis was conducted in accordance with the Council of Inspectors General for
Integrity and Efficiency Quality Standards for Inspection and Evaluation (Standards).
Accordingly, we included procedures that were considered necessary under the circumstances.
The Standards require that we obtain sufficient, competent and relevant evidence to afford a
reasonable basis for our findings and conclusions.




                                                                                                1
                          RESULTS OF OIG ANALYSIS
Audit Financial Statements. Lutz and Carr, Certified Public Accountants, LLP audited NFT's
statement of financial position as of June 30, 2012 and 2011, and the related statements of
activities, functional expenses, and cash flows for the year then ended, in accordance with
auditing standards generally accepted in the United States of America. The audit resulted in an
unqualified opinion (clean).

Financial Position. An overview of NFT's Statement of Financial Position as of June 30, 2012
is as follows:

Assets
   Current Assets                                                          $
   Property and Equipment

       Total Assets                                                        $

Liabilities and Net Assets
   Liabilities (All Current)                                               $
   Net Assets (Deficit)                                                        (


Note: Total current unrestricted assets were $         There were no restricted assets for future
programs and periods.

The budget is detailed in the following table

     Fiscal Year                  Income                 Expenses                  Deficit
        2012
        2013
        2014
Note: FY 2014 budget projects a        award from NEA.


Based on the information provided, it appears that NFT will continue to have more liabilities
than assets through FY 2014. As a general rule, an organization's current assets should exceed
current liabilities to meet short-term operating needs.

NFT's Compliance with Cost Reimbursement Method of Funding and NEA General Terms
and Conditions. Under the Cost Reimbursement Method of Funding, the grantee will be
required to finance its operations with its own working capital with payments to be paid on a
reimbursable basis for actual cash disbursements supported by adequate documentation. Costs
are only reimbursed when required matching costs have also been incurred. Documentation
generally will take the form of an invoice, receipt or contract supported by a copy of a cancelled
check/electronic copy or other document supporting that the transaction was enacted; e.g., bank
statement, electronic reference, etc.

                                                                                                    2
We requested G&C’s comments on NFT's previous submissions and reviewed the most recent
grant file for Grant No. 11-3200-7091. G&C informed us that NFT has submitted incorrect
reports, which had to be resubmitted or corrected by NEA. For example, for Grant No. 11-3200-
7091, NFT overstated its total outlays on its payment request by $17,688. The payment request
was submitted May 23, 2012. NFT reported total outlays in the amount of $77,834, however,
NFT only submitted $60,146 in supporting documentation with the request.

NFT was awarded American Recovery and Reinvestment Act (ARRA) Grant No. 09-3288-7268,
in the amount of $25,000. All ARRA recipients were required by the US Office of Management
and Budget (OMB) and NEA to maintain personnel activity (time and effort) reports to support
salary costs charged to the award. NEA further required recipients on the Cost Reimbursement
Method of Funding to certify, with each payment request, that costs were accurate and
supporting documentation would be maintained for three years.

We requested personnel activity reports to support salary costs charged to the ARRA award for
FY 2010, Quarters 1 and 2. We were informed by an NFT official that personnel activity reports
were not maintained for that period. We also noted in the grant file that NEA's G&C Office
reminded NFT of the requirement for personnel activity (time and effort) reports in an e-mail,
dated April 12, 2010.

Based on the information above, we make the following recommendation.


                              RECOMMENDATION
We recommend that the NFT remain on the Cost Reimbursement Method of Funding until NFT's
financial position improves. NFT should also improved its submissions of accurate and
complete reports and compliance with OMB guidelines and NEA General Terms.




                                                                                             3
